No. 21-231

In The Supreme Court of The United States
Julie Ellen Wartluft, fka Julie Ellen Bartels, et al.,
v.
The Milton Hershey School, et al.
CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the
accompanying amicus curiae brief of Protect the Hersheys’ Children, Inc., contains
1,690 words and that the accompanying motion contains 303 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on September 16, 2021.

For:
JOSEPH H. JONES, JR.
COUNSEL OF RECORD
WILLIAMSON, FRIEDBERG &
JONES, LLC
TEN WESTWOOD ROAD
POTTSVILLE, PA 1790
TEL: 570-622-5933

Denise Dulong
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
(804) 249-7771 – Facsimile
denise@gibsonmoore.net

